                                      UNCLASSIFIED




                      UNITED STATES DEPARTMENT OF STATE
                  AND THE BROADCASTING BOARD OF GOVERNORS
                             OFFICE OF INSPECTOR GENERAL

ISP-IB-15-02                         Office of Inspections                        October 2014


MEMORANDUM
TO:                 BBG – Andre Mendes, Director of Global Operations

FROM:               OIG – Robert B. Peterson , Assistant Inspector General
                    for Inspections

SUBJECT:            Limited-Scope Review of Broadcasting Board of Governors Operations
                    in Baku, Azerbaijan, ISP-IB-15-02

Executive Summary

        The Office of Inspector General (OIG) found no significant issues at the Radio Free
Europe/Radio Liberty (RFE/RL) Azerbaijan news bureau or with the Voice of America (VOA)
Azerbaijan operations; however, limited financial resources and host-country interference were
identified as challenging issues for these Broadcasting Board of Governors (BBG) operations.
The relationship between RFE/RL and the embassy is characterized as good, and the
relationship between RFE/RL and VOA is described as collaborative. RFE/RL has been able to
implement a number of the goals of the BBG Strategic Plan 2012–2016, Impact through
Innovation and Integration, through a series of programming activities, including use of social
media, which has been an effective tool for reaching out to targeted audiences in Azerbaijan.

Background

        The Government of Azerbaijan owns all television outlets, and owners of all
newspapers have partisan political loyalties. This situation creates an atmosphere of
intimidation of and interference with RFE/RL and VOA journalists. RFE/RL reports that
RFE/RL and VOA employees in Azerbaijan have been subjected to physical and psychological
threats (two journalists were murdered, and numerous others have been imprisoned on
questionable charges) over stories about taboo subjects, such as official corruption and
negative stories about the President and his family. Freedom House—a U.S.-based
nongovernmental organization that conducts research and advocacy on democracy, political


                                            Page 1 of 3

                                      UNCLASSIFIED
                                            UNCLASSIFIED

ISP-IB-15-02    Review of Broadcasting Board of Governors Operations in Baku, Azerbaijan   October 2014


freedom, and human rights—rates Azerbaijan as “not free” in its 2014 Freedom of the Press
index.

Purpose, Scope, and Methodology

        The limited-scope review of BBG operations in Azerbaijan took place in Baku between
April 28 and May 17, 2014, in connection with the OIG inspection of Embassy Baku. The
inspector conducted survey work in Washington, DC, during April 2014. The inspector focused
on interviews with the bureau chief and journalists in Baku as well as with embassy public
affairs employees. The inspector also conducted a telephone interview with the RFE/RL
Azerbaijani service chief in Prague, where the RFE/RL main office is located.

Radio Free Europe/Radio Liberty Azerbaijani Service’s Salary Issue

       RFE/RL Azerbaijan has 17 employees at the news bureau and 20 stringers around the
country. The RFE/RL bureau chief reported that employee salaries have not kept up with the
country’s skyrocketing inflation (20–25 percent this year). They also said that their salaries are
no longer competitive with those of employees from large media outlets.

Challenging Working Conditions

        Azerbaijan can be a dangerous place to work for independent journalists. The
Government of Azerbaijan, although not banning RFE/RL and VOA employees, has made their
lives uncomfortable. The only VOA stringer is still recovering from injuries inflicted by Baku
State University security at a protest in April 2014. An RFE/RL journalist has been called into
the Azerbaijani prosecutor’s office several times this year after she wrote about official family
corruption. Embassy Baku and BBG supported the journalist by speaking on her behalf at press
briefings and through official embassy statements. The Department of State’s annual human
rights report states that political, civil, and human rights in Azerbaijan deteriorated over the past
year. The Government of Azerbaijan used libel suits, unfair trials, physical attacks, financial
pressure, and imprisonment to clamp down on opposition media.

        RFE/RL journalists must renew their accreditation annually with the Ministry of Foreign
Affairs. Without credentials, journalists may be denied entry to official events. The ministry has
already delayed renewing their credentials by 2 months.

Broadcasting Board of Governors Programming

       In accordance with the BBG 5-year Strategic Plan goal #1, Unify the Agency into One
Organization, Many Brands, VOA and RFE/RL have conducted some joint projects. VOA
broadcasts on RFE/RL’s Azadliq Radiosu TV satellite channel. In this platform, RFE/RL
broadcasts a weekly news magazine, individual interviews, and an entertainment program. In
addition, RFE/RL television airs all VOA television content. RFE/RL provides office space to
the VOA stringer.

       A popular RFE/RL radio broadcast was curtailed in 2009 by an Azerbaijani law that
prohibits international broadcasters from using the country’s FM frequency. As a result, RFE/RL

                                                  Page 2 of 3

                                            UNCLASSIFIED
                                            UNCLASSIFIED

ISP-IB-15-02    Review of Broadcasting Board of Governors Operations in Baku, Azerbaijan   October 2014


increased its use of Internet and direct-to-home satellite television, although neither of these has
been free of interference. Through a marketing affiliate agreement, RFE/RL briefly broadcasted
on Turkish-owned Turksat TV and Turksat Radio. The programming was jammed, which led to
Turksat refusing to serve RFE/RL. Efforts are still underway with this affiliate partner, but
options for finding other broadcasting partners with satellite availability are few. During a
market research trip to Azerbaijan in late 2012, BBG discussed options with the Azerbaijani
broadcasters. Unfortunately, the discussions did not result in RFE/RL programming placements.
These projects relate to the BBG 5-year Strategic Plan goal #6, Combat Internet Censorship and
Jamming.

Social Media

        Social media use is still relatively open in Azerbaijan, although the government has
persecuted some online activists for their social media posts. Local sources reported that since
the October 2013 elections, the Government of Azerbaijan pays more attention to what is being
said on social media and has begun to use social media to disseminate its message of
intimidation.

        Despite these challenges, over the past year, 33 percent of visits to the RFE/RL
Azerbaijani Web site came from Facebook and the news bureau’s fan pages have nearly 120,000
followers. The site also has 35,000 subscribers on YouTube, which the bureau director claims is
the highest per capita rate anywhere in the former Soviet Union.

        RFE/RL has a new show called “Know Your Rights” that covers human rights and daily
life questions. One of the programs was titled, “Five Things you Should Know before you Open
the Door to a Police Officer.” RFE/RL has also added a Facebook radio show that features a
talking watermelon discussing serious news topics. These efforts relate to the BBG 5-year
Strategic Plan goals #7, Elevate and Expand Social Media Innovation, and #8, Employ Leading-
Edge Communications Techniques and Technologies.

Relationship with the Embassy

         Embassy Baku’s public affairs section and RFE/RL journalists and staff characterized
their relations as good. RFE/RL stated that the embassy supports RFE/RL with deliveries of
equipment through the pouch system.

        The embassy offers support, as needed, when journalists are detained. If one of the
RFE/RL journalists is arrested, the embassy puts out promptly an official statement on the
embassy Web site and social media and contacts the Ministry of Interior to protest. The RFE/RL
news bureau has interviewed the Ambassador twice, and a third interview is planned for the near
future. Embassy Baku’s regional security officer does not provide any security support to BBG
operations in Baku. The RFE/RL employees interviewed during the inspection did not raise any
office security concerns to the inspector.

       Robert Torres, Coordinator for International Broadcasting in the Office of Inspections, is
available to discuss with you this memorandum report if you have any questions. He can be
reached at 703-284-       or email [Redacted] (b) (6)@state.gov.
                    [Redacted] (b) (6)




                                                  Page 3 of 3

                                            UNCLASSIFIED
